E

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. - - MAHMOUD THIAM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of November, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
JONATHAN I. EDELSTEIN
EDELSTEIN & GROSSMAN
Counsel of Record
501 Fifth Avenue, Suite 514
New York, NY 10017
(212) 871-0571
jonathan.edelstein.2@gmail.com

Subscribed and sworn to before me this 4th day of November, 2019.
I am duly authorized under the laws of the State ofNebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38898

Noel J. Francisco
Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

